No. 19-1258

In THE
Supreme Court of the United States

ARIZONA REPUBLICAN PARTY, ET AL.

Petitioners,
v.

DEMOCRATIC NATIONAL COMMITTEE, ET AL.
Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I hereby certify that the Reply
Brief in Support of Petitioner for a Writ of Certiorari in Arizona Republican Party v.

Democratic National Committee, No. 19-1258, complies with the word limitations, as

it contains 3,000 words.

I declare under penalty of perjury that the foregoing is true and correct.

Date: July 29, 2020

 
